                            Office of the Inspector General

September 30, 1999

John R. Dyer

Principal Deputy Commissioner

 of Social Security


Acting Inspector General



Performance Measure Review: Periodic Full Medical Continuing Disability Review

Data Collection (A-01-98-94003)



Attached is a copy of the subject final report. The objective of this evaluation was to

assess the process used by the Social Security Administration (SSA) to accumulate

and report periodic full medical continuing disability review (CDR) workload data to

Congress. SSA is required to provide Congress with the number of periodic CDRs

performed each year to: (1) meet annual reporting requirements established by

legislation, and (2) report on workload performance measures established by both SSA

and the Congress. Under the Government Performance and Results Act, SSA chose to

report the number of periodic CDRs performed annually as a performance measure.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to comment, please provide your comments within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at (410) 965-

9700.





                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



 PERFORMANCE MEASURE REVIEW:
     PERIODIC FULL MEDICAL
  CONTINUING DISABILITY REVIEW
        DATA COLLECTION

 September 1999     A-01-98-94003



EVALUATION

  REPORT

                 E X E C U T I V E S U M M A R Y


OBJECTIVE

The objective of this evaluation was to assess the process used by the Social Security
Administration (SSA) to accumulate and report periodic full medical continuing disability
review (CDR) workload data to Congress.

BACKGROUND

A periodic CDR is a review routinely conducted to determine if a disabled individual is
still medically eligible to receive benefits under the Disability Insurance or
Supplemental Security Income programs. SSA conducts periodic CDRs using one of
two methods: full medical reviews or questionnaires. Full medical reviews are
primarily conducted by a Disability Determination Services (DDS) office located in each
State. Once a DDS medical examiner makes a decision as to whether or not an
individual is still disabled, an electronic record showing the results of the review is
transmitted to the National Disability Determination Services System (NDDSS), which is
maintained by SSA. This data base maintains information on all full medical CDRs
conducted nationwide.

SSA is required to report to Congress the number of periodic CDRs performed each
year to meet two legislative requirements. The Social Security Act requires SSA to
report to Congress annually on the results of periodic CDRs, and the Contract with
America Advancement Act of 1996 requires that SSA provide an annual status report
on the number of periodic CDRs performed. In addition, under the Government
Performance and Results Act, SSA chose to report the number of periodic CDRs
performed annually as a performance measure. Finally, periodic CDRs is one of the
workload measures reported to Congress to gauge SSA’s progress in meeting
workload goals proposed in its budget. Although SSA performs both periodic and work
CDRs, the above listed reporting requirements focus specifically on periodic CDRs,
which account for the majority of SSA’s total CDR workload each year.

RESULTS OF REVIEW

Overall, SSA’s process to accumulate aggregate full medical CDR workload data is
adequate, but the NDDSS does not have the capability to fully distinguish periodic
CDRs from other workloads for congressional reporting. As a result, SSA could not
ensure that 12.5 percent of full medical CDRs reported in Fiscal Year (FY) 1997 were
correctly classified as periodic CDRs. SSA had not reported on the full medical CDRs



                                          i
for FY 1998 at the time of our review. These NDDSS classification problems have
increased the risk that SSA is over-reporting to Congress the number of periodic
CDRs performed.

Classification Codes in the NDDSS

SSA does not solely rely on the NDDSS to report the number of CDRs conducted, but
has established separate tracking systems to adjust NDDSS totals prior to reporting
these workload numbers to Congress. SSA is not able to identify all of its workload
using this approach, since these systems cannot monitor the “other”category to ensure
that periodic CDRs are properly separated from work CDRs. The NDDSS uses the
CDR classification codes entered by DDS staff to sort the CDR workload for reporting
purposes. However, some periodic CDRs lack adequate classification and, hence, are
placed in the “other”CDR category of the primary workload report, where they are
assumed to be periodic CDRs. Proper classification has been hampered by: (1) cases
arriving at the DDS offices without accurate identification; (2) DDS staff overusing the
“miscellaneous”code on CDRs; and/or (3) DDS staff leaving key classification fields
blank.

Coding Guidance Provided to DDS Offices

Although the CDR classification codes are key to SSA’s attempt to categorize CDR
workloads, SSA has not provided consistent guidance on these codes to the DDS
offices. Also, the multiple software programs and computer systems used by DDS
offices have made coding problems difficult to monitor and correct. We found six out of
the seven DDS offices that we contacted lacked a complete, up-to-date list of codes in
their NDDSS interface software programs.

SSA’s Attempts to Improve DDS Coding

SSA officials have recognized some of the problems related to ensuring valid
classification codes are used. DDS offices are now required to place two classification
codes on every case. In addition, SSA added case classification information to the
systems used by the DDS offices in order to better identify incoming CDR cases.
However, the NDDSS continues to accept invalid classification codes. Also, five of
seven DDS offices did not use the new CDR classification feature on incoming cases
for a variety of reasons, including: (1) DDS staff did not trust the CDR classification
code and/or (2) the CDR classification code was not available.




                                          ii
RECOMMENDATIONS

To assist DDS offices with their CDR workload and to improve the accuracy of CDR
data reported to Congress, we recommend that SSA:

   •	 provide guidance to SSA and DDS offices explaining the importance of
      completed transmittal sheets and proper coding to differentiate the specific
      workloads;

   •	 provide SSA components and DDS offices with a single source of authoritative
      and updated CDR classification codes to ensure all offices are using the proper
      codes;

   •	 coordinate with DDS offices to update their software programs to ensure the
      proper classification codes are maintained in their systems; and

   •	 update the edits in the NDDSS so that all incoming records with invalid "why
      review was made" codes are rejected and returned to the DDS offices for
      correction.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations, except to
update the edits in the NDDSS. SSA indicates that subsequent to our exit conference,
the Office of Systems Requirements verified that this edit is in place. (See Appendix E
for the full text of SSA’s comments to our draft report.)

OFFICE OF THE INSPECTOR GENERAL RESPONSE

At the time of our audit, the NDDSS accepted invalid codes, as we found specific cases
where invalid codes were accepted. In future audits, we will test whether SSA’s recent
changes corrected this condition.




                                         iii
                         T A B L E O F C O N T E N T S

                                                                                                              Page

EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 8


    CLASSIFICATION CODES IN THE NDDSS ..................................................... 8


    � SSA’s Reliance on NDDSS Classifications ................................................ 9

    � Classification Codes and “Other”CDRs .................................................... 10

    � Classification Issues at the DDS Offices ................................................... 11

              Transmittal Sheet Problems ................................................................. 11

              DDS’s Use of the Classification Codes ................................................ 12


    CODING GUIDANCE PROVIDED TO DDS OFFICES ................................... 13


    � Out-of-Date Guidance................................................................................ 13

    � Decentralized Computer Systems ............................................................. 14


    SSA’s ATTEMPTS TO IMPROVE DDS CODING ........................................... 14


    � New Guidance on Classification Codes..................................................... 14

    � Automated Codes Available at the DDS Offices........................................ 15


CONCLUSIONS AND RECOMMENDATIONS .................................................... 17



APPENDICES
Appendix A – List of Acronyms

Appendix B – Relevant SSA CDR Legislation

Appendix C – Summary of Government Performance and Results Act of 1993

Appendix D – CDR Codes Provided in SSA’s Guidance Compared to the Codes Used

             by the DDS Offices Visited
Appendix E – Agency Comments
Appendix F – Major Contributors to this Report
Appendix G – SSA Organizational Chart
                                I N T R O D U C T I O N


OBJECTIVE

The objective of this evaluation was to assess the process used by the Social Security
Administration (SSA) to accumulate and report periodic full medical continuing disability
review (CDR) workload data to Congress.

BACKGROUND

Since 1980, SSA has been required to conduct periodic CDRs on individuals receiving
Disability Insurance (DI) benefits. Periodic CDRs relate to reviews performed from time
to time to determine if an individual is still medically eligible to receive benefits, as
compared to work issue CDRs related to reviews initiated when work activity is reported
for an individual. Legislation enacted since 1994 has also required CDRs and
redeterminations on Supplemental Security Income (SSI) recipients (see Appendix B).
                                                                     1
For both the DI and SSI programs, SSA is required to annually report to Congress the
number of periodic CDRs completed, the cost to perform these reviews, and the
expected program cost savings that will result from these reviews.

The Government Performance and Results Act of 1993 (GPRA) requires SSA to
establish performance measures for its major business functions (see Appendix C).
SSA chose the number of periodic CDRs performed annually as a performance
measure under GPRA. SSA has also committed to Congress that it will report on:
(1) the number of periodic CDRs conducted; and (2) the number of childhood
redeterminations conducted under the Welfare Reform law.2 Information on both of
these workload measures was promised to Congressman Porter, Chairman of the
Labor, Health and Human Services, Education and Related Agencies Subcommittee,
who wanted to gauge SSA’s progress in meeting workload goals proposed in its annual
budget.3 The workload goals for Fiscal Year (FY) 1997 through 1999 are shown in
Table 1.




1
    This requirement applies to Fiscal Years 1996 through 2002.
2
 References to the Welfare Reform law relate to the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996.

3
    These performance goals are often called the “Porter Commitments.”


                                                  1

             Table 1: Workloads Under GPRA and the Porter Commitments

     Periodic CDRs Processed                FY 1997                FY 1998               FY 1999
    Planned                                 603,000               1,245,000             1,637,000
    Actual                                  690,478               1,391,889                NA

CDR Workloads

CDRs are conducted through one of two methods: full medical reviews or CDR
mailers. Full medical reviews are primarily conducted by Disability Determination
Services (DDS) offices located in each State,4 whose administrative costs are funded
by SSA. The DDS offices’responsibilities related to CDRs include reviewing an
individual’s medical evidence, developing medical evidence if unavailable or
insufficient, and rendering a determination as to whether the individual is still disabled.

CDR mailers5 are questionnaires sent to disabled individuals asking whether: (1) they
have performed any work; (2) their medical condition has changed; and (3) they are
interested in receiving vocational rehabilitation services. If the answers to the
questions indicate the individual’s condition may have improved, the case is referred to
a DDS office for a full medical CDR to determine whether the individual is still disabled.

In its most recent Annual Report on CDRs, submitted to Congress on August25, 1998,
SSA stated that it processed 690,478 periodic CDRs during FY 1997.6 SSA also stated
that the cost to process these CDRs was $330 million. Over the next four years, the
number of CDRs performed is expected to increase as SSA eliminates its backlog. In a
March 1998 report to Congress, SSA updated its 7-year plan to eliminate the backlog
of periodic CDRs by FY 2002. The CDRs performed or planned through FY 2002 are
shown in Figure 1.




4
 DDS offices shown in SSA’s workload reports are located in all 50 States, the District of Columbia,
Guam, and Puerto Rico.


5
  SSA noted in its FY 1996 Annual Report on CDRs that the profiling system used to determine who
receives the mailer questionnaire “. . . has proven to be an efficient and cost-effective means for
identifying beneficiaries who, because their disabling impairments have not improved, do not require full
medical reviews in the [DDSs].”


6
    The 690,478 CDRs consisted of 420,863 full medical CDRs and 269,615 CDR mailers.



                                                  2

                                          Figure 1: SSA's 7-Year CDR Plan


                             2000
                             1800
                             1600
                             1400
                 Number of
                             1200
              Periodic CDRs
                             1000
                Processed
                              800
              (In Thousands)
                              600
                              400
                              200
                                0
                                    '96      '97     '98       '99     '00   '01   '02
                                                           Fiscal Year

                                                   Mailer     Full Medical


               Note: CDR numbers for FYs 1996 and 1997 represent actual counts reported by SSA.




CDR Reporting Process at the DDS Offices

SSA’s field offices (FO) send CDR cases to the DDS offices throughout the year for
processing. SSA initiates these CDRs for various reasons, including: (1) routine
scheduling of a medical review (this is sent out as a “direct release”);7 (2) responses to
a CDR mailer indicate that the individual’s medical condition has improved; (3) receipt
of information that an individual’s condition has improved and/or the individual has
been working (this is sent out as a “work CDR”); or (4) testing the reliability of SSA’s
systems and/or verifying assumptions through a full medical review.

SSA’s folder processing centers send the case folders (which contain background and
medical information on the individual) selected for a CDR to the appropriate FO for
development. FO personnel review the information in the case folders, interview the
individuals, and update pertinent facts in the folders prior to sending the cases onto the
DDS offices for full medical reviews. DDS medical examiners, using information in the
case folders, determine if additional tests are necessary. Based on this information, a
determination is made as to whether the individual is still disabled according to current
medical criteria. The DDS office prepares a Cessation or Continuance of Disability or
Blindness Determination and Transmittal at the end of each review to provide
information on the medical review, including a decision as to whether the individual is
still disabled. An electronic version of this form is transmitted daily to the National
Disability Determination Services System (NDDSS), which is maintained by SSA. This
data base maintains information on all full medical CDRs conducted nationwide. See
Figure 2 for a flow chart of the CDR direct release process.

7
 SSA classifies medical impairments into one of three periodic CDR categories: Medical Improvement
Expected , which generally necessitates a review every 6 to 18months; Medical Improvement Possible ,
which generally necessitates a review every 3 years; and Medical Improvement Not Expected, which
generally necessitates a review every 5 to 7years.


                                                             3

                                       Figure 2: Direct Release CDR Process


                        Office of Disability      -- The Office of Disability determines which cases
                                                  need to be reviewed and alerts the FO.




                       Office of Disability       -- The Office of Disability Operations pulls the DI
                                                  case folders and the Folder Service Operations or
                           Operations /           FO pulls the SSI case folders related to the
                        Folder Service            cases identified by the Office of Disability
                            Operations /          above. All case folders are shipped to the
                                                  appropriate FO.
                           Field Offices


                                                    -- FOs screen out cases whereCDRs are not
                           Field Offices            required, interview the beneficiaries and
                                                    update the information in the case folders,
                                                    which are then forwarded to the DDS offices.


                                                    -- The DDS office conducts a review of the
                           Disability
                                                    medical evidence, updates the NDDS with a
                          Determination             decision on the case, and returns the case
                           Services                 folder to SSA.



                      Note: Work CDRswould be initiated at the FOs.



SSA has also developed a CDR tracking system, the CDR Control File (CDRCF), to

assist the Office of Disability (OD) in managing the increasing number of CDRs

mandated by legislation. This system is used to notify FOs that a routine CDR is due,

track the progress of the CDR, and interface with other SSA systems to update the

recipient’s records. The CDRCF also shares information with the NDDSS.

Although the CDRCF currently covers SSI CDRs only, SSA is in the process of

expanding the capability of the system, so it can handle DI and concurrent CDR cases

as well.8


State Agency Operations Report

The NDDSS produces the State Agency Operations Report (SAOR), which provides
workload data for each DDS office. The SAOR report tracks the DDS workload on a
weekly basis.9 DDS staff identify incoming and outgoing CDR cases through specific

8
    Concurrent cases relate to individuals receiving both DI and SSI benefits.

9
    The NDDSS data base also captures other types of information, such as the number of initial



                                                          4

classification codes. One of the codes used on incoming cases, the Continuing
Disability Review Type (CDT) code, is used by the NDDSS to initially classify the CDR
workload into four categories: (1) direct release; (2) mailers; (3) work; and (4)other.
SSA considers all of these to be periodic CDRs except work CDRs. A second code,
the Why Review Was Made (WRM) code, is later entered into the same system and
determined by medical examiners at the end of the CDR process. Although both codes
are expected to identify the CDR cases in the same way, the WRM code supercedes
the CDT code in the NDDSS and becomes the final identification of the CDR case.
Appendix D provides a complete listing of the CDT and WRM codes used by DDS
offices. See Figure 3 for a flow chart of the coding process at DDS offices.

                           Figure 3: Classification of Cases at the DDS Offices

            DDS Receives                                  DDS Identifies
           Folders from SSA                              Case in the NDDSS


                 CDR
                                                               CDT Code
                Medical
                                                               Determined
                Folders

                                  DDS Conducts                                  CDT Code Input
                                      CDR


                                    Full Medical                                NDDSS
                                        CDR



                                                                                WRM Code Input

                  CDR                                         WRM Code
                 Medical                                      Determined
                 Folders

                                                      DDS Determines Whether
             DDS Returns                             Beneficiary Continues to Be
            Folders to SSA                         Disabled and Inputs Reason for
                                                          Review into NDDSS


According to SSA’s FY 1998 SAOR, the majority of the cases coming into DDS offices
were coded as direct releases. In FY 1998, approximately 83 percent of the CDRs
performed at the DDS offices were identified as part of the direct release process. The
next largest groups were the “other”CDRs, initiated by the FOs or centrally by SSA;
and work CDRs initiated by FOs. These groups represented about 13 percent and




determinations on individuals applying for disability benefits for the first time, reconsiderations of
previous DDS determinations, and staffing levels at the DDS offices. We only reviewed the CDR
workloads in this report.


                                                     5
3 percent of the FY 1998 workload, respectively. Finally, CDR mailer cases forwarded
to DDS offices for a medical review were about 1 percent of the total. This breakout is
shown in Figure 4.


                           Figure 4: CDR Workload Break-out
                                       in FY 1998

                                                      Other CDRs
                                                         13%

                         Direct
                        Release                       Work CDRs
                          83%                            3%


                                                       CDR
                                                      Mailers
                                                       1%




SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 visited three DDS offices and telephoned four DDS offices to assess their
      process for inputting CDR information into the NDDSS;

   •	 interviewed SSA regional officials in five regions to discuss the CDR reporting
      process at the DDS level and to obtain information on particular coding
      problems;

   •	 interviewed SSA officials in the Office of Information Management (OIM), the
      Office of Systems Requirements and OD in Baltimore, Maryland, on the
      operations of the NDDSS, the availability of CDR processing guidance, and the
      uses of information provided by the DDS offices;

   •	 reviewed the Program Operations Manual Systems (POMS) instructions, the
      Management Information Manual (MIM), and other guidance available to DDS
      offices explaining how CDR cases should be processed;

   • analyzed information available in the SAOR for FYs 1996 through 1998;

   • analyzed CDR data available in the NDDSS for FYs 1997 and 1998; and

   •	 reviewed SSA’s recent efforts to make classification codes more reliable, such
      as the CDRCF download and new WRM field edits in the NDDSS.



                                         6

This is our third CDR report in a series of reviews. In our first CDR report, we reviewed
SSA’s FY 1996 Annual Report on CDRs for compliance with congressional reporting
requirements.10 In our second report, we reviewed the cost allocation process used by
SSA when assigning administrative costs to CDRs and redeterminations.11

We did not verify the accuracy of individual CDR entries, but focused our efforts on
specific coding issues that could impact the reliability of CDR entries as they are sorted
and utilized by SSA in reports to Congress. We performed our review in Baltimore,
Maryland, and Boston, Massachusetts, between May and December 1998. The review
was conducted in accordance with theQuality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




10
 SSA/OIG A-01-97-91007, “Review of the Social Security Administration’s Fiscal Year 1996 Annual
Report on Continuing Disability Reviews,”March 18, 1998.


11
  SSA/OIG A-01-98-51001, “The Social Security Administration’s Process to Segregate Continuing
Disability Review Costs,”August 27, 1998.


                                              7

                  R E S U L T S O F R E V I E W


Overall, SSA’s process to accumulate aggregate periodic full medical CDR workload
data is adequate. However, the NDDSS does not have the capability to fully
distinguish periodic CDRs from other workloads. As a result, SSA has developed
additional tracking methods for specific workloads to accommodate congressional
reporting requirements. This separate tracking allows SSA to identify most of its
periodic CDR workload in FY 1997. However, SSA could not ensure that the 12.5
percent of periodic CDRs (some 52,604 CDR’s) reported in FY 1997 were correctly
classified as periodic CDRs. As a result, NDDSS classification problems have
increased the risk that SSA is over-reporting to Congress the number of periodic
CDRs performed.

To meet congressional reporting requirements, SSA must have an accurate and
complete measure of all CDRs performed and must be able to specifically identify the
CDR workload from all other work performed. Cases in the NDDSS are classified
based on the coding determined by staff in the DDS offices. Based on discussions with
DDS officials, we found that some DDS offices have trouble classifying portions of their
CDR workload and do not have an authoritative and updated listing of CDR
classification codes. Also, our analysis of the information in the NDDSS found that
DDS staff are coding CDR cases with miscellaneous codes, invalid codes, or leaving
the classification field blank. Cases coded in this manner are classified as periodic
CDRs for reporting purposes. Coding problems can be attributed in part to:
(1) incomplete or incorrect information on the case folders received by the DDS offices;
(2) inconsistent SSA guidance to the DDS offices regarding CDR codes tobe used in
the NDDSS; and (3) the variety of computer software programs at the DDS offices.
Although SSA has made some changes in an attempt to resolve the classification
problems, these changes to date have been inadequate.

CLASSIFICATION CODES IN THE NDDSS

SSA does not use the NDDSS workload report, but has established separate tracking
systems to adjust NDDSS totals prior to reporting these workload numbers to
Congress. Hence, SSA is not able to identify all of its workload using this approach
since these systems cannot monitor the “other”category to ensure that periodic CDRs
are properly separated from work CDRs. The NDDSS uses the CDR classification
codes entered by DDS staff to classify the CDR workload for reporting purposes.
However, some periodic CDRs lack adequate classification and, consequently, are
placed in the “other”CDR category of the primary workload report, where they are
assumed to be periodic CDRs. Proper classification has been hampered by: (1) cases
arriving at the DDS offices without accurate identification; (2) DDS staff overusing the


                                          8

“miscellaneous”code on CDRs; and/or (3)DDS staff leaving key classification fields
blank.

SSA’s Reliance on NDDSS Classifications

Although the SAOR is SSA’s key CDR workload report, OD staff told us that all of the
categories shown on the SAOR, with the exception of work CDRs, are not used when
reporting CDR results to Congress because OD has established separate data bases
to track direct release and mailer CDR workloads. Both the direct release and mailer
workloads are monitored centrally by OD staff. OD also monitors childhood
redeterminations under the Welfare Reform law through a separate data base that
shows the Social Security numbers of cases released to FOs. This data base is
periodically updated as the NDDSS shows that a CDR on a specific case has been
completed. The year-end totals for direct release and mailer CDRs shown in these
separate data bases are what will be reported to Congress rather than the category
totals in the SAOR. See Figure 5 for a diagram showing the process used to adjust FY
1997 SAOR category totals for the FY 1997 Annual Report on CDRs.

    Note: Numbers used above come from the FY 1997 SAOR and the FY 1997 Annual

        Figure 5: Conversion of SAOR into a Report for Congress


                     SAOR CDR Categories
        Direct          CDR
                                                Other               Work
        Release         Mailer
                                               282,012              20,224
        354,191         8,927



        Adjusted With Separate OD Databases
                Tracking Workloads




                                          Not
       Direct Release     Age-18                         Welfare
                                       Initiated                     Work
       & CDR Mailer        CDRs                          Reform
                                       Centrally                    20,224
          319,425         48,834                         224,267
                                        52,604


       Annual Report on CDRs
    Report on CDRs. The Report did not segregate direct release CDRs from CDR mailers.
    Both Welfare Reform childhood redeterminations and age-18 CDRs are included in the
    "other" category on the SAOR.




                                          9

While SSA’s separate data bases allow monitoring of direct release and mailer CDRs,
SSA is not able to identify work CDRs and “other”CDRs, since it is the FO that has
made a determination that a CDR is necessary and not OD. As a result, SSA used the
work CDR count from the SAOR for its FY 1997 Annual Report on CDRs. In addition,
SSA had to note in its FY 1997 Annual Report on CDRs that another 52,604 periodic
CDRs were “not initiated centrally,”without being able to say any more about these
cases. However, SSA’s inability to monitor the contents of this category increases the
risk that SSA is inappropriately combining work CDRs and periodic CDRs in its reports
to Congress, especially since only the FOs initiate both work CDRs and periodic CDRs.
As a result, SSA still must be able to rely on CDR classifications in the NDDSS to
accurately report all full medical CDRs. A better understanding of the “other”category
in the SAOR, as well as DDS coding problems, may explain some of the unidentified
CDRs.

Classification Codes and “Other” CDRs

Vague or invalid classification of cases by DDS staff can overstate the “other”CDR
category of the SAOR while understating the remaining three categories. The purpose
of the NDDSS classification scheme is to place each CDR in one of four categories in
the SAOR. According to this classification scheme, CDRs are categorized based on
their CDT and/or WRM codes. Improperly coded CDRs are placed by default in the
“other”category of the SAOR. Since the “other”category is considered to be a periodic
CDR category, any work CDRs with vague or invalid coding will be misreported in the
SAOR as periodic CDRs.

The FY 1997 Annual Report on CDRs shows that 52,604 CDRs, or about 12.5 percent
of the national workload, were not direct releases, mailers or work CDRs. Although,
these 52,604 CDRs include a number of legitimate CDRs initiated by FOs, such as
voluntary reports of medical improvement, an OD official noted that this number
appears unusually large to cover just the groups legitimately classified as “other.” We
could not determine the extent of the “other”CDRs for FY 1998 since the Annual
Report on CDRs covering this period had not been released at the time of our review.

In our attempt to understand the size of the “other”category, we analyzed data in the
NDDSS for FYs 1997 and 1998 to determine the extent of vague and/or invalid
classification coding. We found that DDS offices had used the “miscellaneous”CDT
code on 9 percent of their workload in FY 1997 and 11 percent of their total CDR
workload in FY 1998. However, a review of specific DDS coding in the FY 1998
NDDSS data shows that 87 percent of the “miscellaneous”codes were represented by
10 DDS offices, even though these DDS offices make up only 21 percent of the
national CDR workload. For example, in FY 1998 the South Carolina DDS office used
the “miscellaneous”code for 81 percent of its incoming CDR cases. Table 2 shows the
10 States with the highest percentage of “miscellaneous”codes in their CDT field.




                                        10

     Table 2: Top 10 States with “Miscellaneous” Codes in the CDT Field
                           FY 1998          FY 1998 Workload           “Miscellaneous”
                            Total               Coded as              as a Percentage of
          State            Workload          “Miscellaneous”          FY 1998 Workload
     Alabama              16,739                       4,127                     24.7
     Florida              38,331                       9,778                     25.5
     Illinois             33,338                      26,512                     79.5
     Indiana              10,610                       2,015                     19.0
     Louisiana            17,779                       7,297                     41.0
     Montana               2,476                         551                     22.3
     Nevada                2,697                         381                     14.1
     New Jersey           13,927                       4,750                     34.1
     South Carolina       10,753                       8,747                     81.3
     Utah                  3,478                         913                     26.3
       Totals            150,128                      65,071                     43.3

We also found that in FY 1997 approximately 5,960 of the CDR cases had a blank or
invalid CDT code and about 11,840 CDR cases had a blank or invalid WRM code. In
FY 1998, about 40,330 of the CDR cases had a blank or invalid CDT code and
approximately 9,580 CDR cases had a blank or invalid WRM code. Although every
DDS office had blank or invalid WRM codes, 5 States make up 52 percent of the blank
or invalid WRM codes even through they represent only 15.7 percent of the national
workload.12 The CDT code has always been a mandatory field on records entered into
the NDDSS, and SSA made the WRM field mandatory as well at the end of FY 1998.

Classification Issues at the DDS Offices

Classification problems can lead to delays in processing, the wrong criteria being used,
or higher numbers of CDRs being placed in the “other”CDR category. The CDR
classification process at the DDS offices is dependent on the quality of the CDR
information provided to the office, as well as the ability of the DDS staff to make
distinctions between workloads. We found several reasons why DDS staff had difficulty
classifying CDR cases. In some cases, the transmittal sheet information on incoming
medical folders was missing or had errors. In addition, the DDS staff were often:
(1) making assumptions about incoming cases that led to vague or erroneous coding;
(2) were classifying whole groups of cases as “miscellaneous;”or (3) misunderstood
how codes should have been used.

Transmittal Sheet Problems

SSA’s components are tasked with identifying the type of CDR being forwarded to DDS
offices. The Boston Regional Office has a CDR Transmittal Form that accompanies the

12
 The five States with the highest number of blank or invalid WRM codes in FY 1998 are Alabama,
New York, Ohio, Wisconsin, and Wyoming.


                                              11

CDR case from the FO to the DDS office and indicates whether the case is a DI, SSI or
concurrent case. It also identifies the CDR as “mailer,”“direct release,”“work issue,”or
“other.” Similar transmittal sheets are prepared by the Office of Disability Operations
(ODO) and the Folder Service Operations (FSO) when sending cases to FOs.
However, both SSA and DDS officials told us that these forms are sometimes missing,
incomplete, or have errors.

DDS officials noted that transmittal sheets have fallen off the CDR case folders as they
are being sent from the FO to the DDS office. In other cases, the information on the
transmittal sheet has been in error. For instance, two DDS offices noted that
transmittal sheets from the FSO were classifying age-18 CDRs as “miscellaneous”
CDRs, even though a specific CDT code had been created for these CDRs. In another
case, coding errors at SSA in early FY 1998 caused CDR case identification problems.
On December 9, 1997, SSA issued an Emergency Message to the FOs noting that
225,000 DI CDRs had erroneously been labeled as “medical improvement not
expected”cases.13 This message noted that “a programming change to allow for the
conversion to the year 2000 resulted in the erroneous labeling of approximately
                                                                                     14
225,000 [DI] direct release CDRs being sent to [FOs] starting in late October 1997.”
DDS officials noted that the uncertainty related to coding of incoming cases leads to
skepticism throughout the DDS offices as to the true identity of the case, causing
additional reviews of the case and delays in the processing of the CDR. In addition,
uncertainty related to certain incoming cases, such as age-18 CDRs, could lead to the
wrong criteria being used in conducting the CDR.

DDS’s Use of the Classification Codes

At two of the seven DDS offices we contacted, the staff responsible for incoming cases
said that they classify most incoming cases as “medical improvement possible,”
regardless of the transmittal form content, just to be conservative. Another DDS office
coded most of the incoming cases as “miscellaneous”regardless of the information on
the flag, while a fourth DDS office actually devised its own transmittal sheet that blurred
the categories and classified almost all of the workload as “miscellaneous.” When
asked about this process, both regional and DDS officials noted that the large volume
of incoming cases makes it difficult for the clerical staff to sort through all of the cases.
Instead, as the cases go forward, the medical examiners are expected to make the
determination later in the process, and put in the right WRM code. However, given the
fact that the classification system uses dual-coding in order to better identify cases,
such short-cuts can compromise the accuracy of the classification process.



13
     See Emergency Message (EM)-97-197.


14
   Later guidance in EM-98-042 noted that the error specifically related to the CDT coding on the
transmittal sheet.


                                                 12

Vague coding guidance creates the risk that work CDRs classified as “miscellaneous”
will be reported in the “other”category on the SAOR and thereby, be included in the
periodic CDR count. Some of the vague coding related to confusion about the CDT
code used for work CDRs. For example, four of the DDS offices told us that they used
the “miscellaneous”code on SSI CDRs because they believed the CDT code for work
CDRs related only to “DI work”CDRs. However, our review of the POMS guidance
shows that “SSI work”CDRs are supposed to use the same CDT code used for “DI
work”CDRs.15 The problem is related to the wording in the guidance for the code
which defines it in terms of DI CDRs only. The transmittal sheets from ODO/FSO add
to this confusion by placing the “SSI work”CDRs under the miscellaneous category
rather than with the “DI work”CDRs.

CODING GUIDANCE PROVIDED TO DDS OFFICES

Although the CDR classification codes are key to SSA’s attempt to categorize CDR
workloads, SSA does not provide consistent guidance on these codes to the DDS
offices. Also, the decentralized nature of DDS operations, including computer
programs, makes coding problems difficult to monitor and correct.

Out-of-Date Guidance

While an OD official told us the MIM is the most up-to-date list of valid CDT and WRM
codes; yet each of the DDS offices we visited said that they used POMS guidance to
set up the CDR codes in their computer systems.16 When we reviewed the POMS
sections the DDS offices used that addressed the coding process and compared them
to the MIM, we found that many of the codes were either missing or incomplete in the
POMS sections cited.17

In particular, we found inconsistent guidance on the CDT and WRM codes. The POMS
section entitled How to Complete the Receipt Data Input Screen,18 intended to assist
DDS personnel with the NDDSS codes used for initial CDR case input, did not address
CDT codes related to the Welfare Reform law, such as CDRs on maladaptive children
15
     POMS SM 06006.073.


16
  SSA defines POMS as “. . . the single authorized means for issuing official written program policy and
operating instructions in SSA, whether issued by central office, regional office or a program service
center.”and “. . .a single repository of all operational information relevant to a particular subject.”


17
  We were able to find a POMS reference that matched the Management Information Manual, POMS
SM 06002.200 – Parts of a Full Query Response, but none of the DDS offices we spoke to cited this
section when asked about coding guidance.


18
     POMS section SM 06001.120.



                                                 13

and individuals attaining age 18. Similar problems were found with instructions for
WRM coding. In the POMS sections specifically addressing the WRM code,19 we
found that neither the Welfare Reform law categories, nor the CDR mailer categories,
were mentioned in either set of guidance.

We requested copies of the CDT and WRM codes being used by seven DDS offices in
their software packages that upload information into the NDDSS. Six out of seven DDS
offices contacted lacked a complete, up-to-date listing of codes in their systems (see
Appendix D).

Decentralized Computer Systems

The variety of software programs and computer systems used by the DDS offices has
made the correction of coding problems all the more difficult. Currently, DDS offices
are using different private sector software packages, depending on the type of
computers used at the office (e.g., IBM, Wang, Unisys, etc.) and the preference of the
State. In addition, each DDS office is responsible for maintaining its own list of CDT,
WRM and additional codes in the software package used to interface with the NDDSS.

SSA officials told us that although the DDS offices are reimbursed by SSA for procuring
interface packages, the software is the property of each DDS office. One regional
official told us that, because SSA does not own the software, the regional office does
not have the authority to monitor the use of the software. As a result, the quality of the
information maintained within the system at each DDS office can vary widely.

SSA’s ATTEMPTS TO IMPROVE DDS CODING

SSA officials have recognized some of the problems related to ensuring valid
classification codes are used. DDS offices are now required to place two classification
codes on every case. In addition, case classification information was added to SSA’s
systems used by DDS offices to better identify incoming CDR cases. However, the
NDDSS continues to accept invalid classification codes and the majority of DDS offices
we contacted were not utilizing the new case classification feature on incoming cases.



New Guidance on Classification Codes

Although CDT codes must be completed for each CDR record entered into the NDDSS,
the WRM codes were not mandatory in the NDDSS until the end of FY1998. New
guidance instructed DDS offices to update their software packages by September 12,
1998, so that a WRM code is required for each CDR processed. The guidance states,
“this modification will enable OD and OIM to provide useful responses to litigation and

19
     POMS section DI 28085.020 and DI 28086.020.


                                              14

legislative requests related to the review of CDRs.” SSA expected the DDS offices to
update their systems.

An OIM official said that the NDDSS was also updated so only a certain range of valid
WRM codes can be accepted. If such an update works properly, fields that are left
blank or filled with an invalid WRM code should be rejected by the NDDSS and sent
back to the DDS office for correction. However, in a later discussion with an OIM
official we found that the allowable range of WRM codes included invalid codes. As a
result, invalid WRM codes were still being accepted by the NDDSS in FY1999.

Automated Codes Available at the DDS Offices

During FY 1998, an NDDSS feature was put in place to assist DDS personnel with CDR
case identification. However, our review found that this new feature does not cure
SSA’s classification problems. The NDDSS now provides an automatic download of
key CDR information from SSA’s CDRCF when the DDS office logs incoming cases into
the NDDSS. Upon entering the Social Security number of an individual scheduled for a
CDR, the NDDSS download provides information such as the individual’s name,
address, telephone number, gender, and date of birth. Although the CDRCF currently
covers SSI CDRs only, it is being expanded to eventually cover DI and concurrent CDR
cases. The automatic download to the NDDSS also includes a CDT code put into the
system by the SSA prior to the folder going to the DDS offices.

While such an electronic file including the CDT code should assist the DDS offices in
identifying incoming cases, five of the DDS offices we spoke to either: (1) did not use
the download information; (2) did not trust the CDT code, even if they used other
information from the download; or (3) did not have a CDT code in their automatic
download. For example, one DDS official noted that the data entry clerks at the DDS
office have not used the download because the CDT codes are not reliable. In
addition, we visited a DDS office to watch the download process and noted that the
download was missing a CDT code. When we later spoke to SSA officials about the
DDS comments, the officials said that some of the DDS offices may have been slow to
utilize the new download feature, but noted that SSA was now receiving positive
feedback on this CDRCF feature.

It is also worth noting that although SSA created the CDRCF to manage an increasing
number of CDRs mandated by legislation, the current CDRCF is unable to identify CDR
cases that originate at the FOs. As SSA states in its POMS guidance, “This CDRCF is
for CDRs established by the Office of Disability (OD). . . It is NOT intended for Field
Office initiated CDRs.”20 As such, the CDRCF cannot, at this time, assist SSA in
monitoring work and “other”CDRs.




20
     POMS DI 40503.004.


                                         15

 CONCLUSIONS AND RECOMMENDATIONS


SSA’s plans to process and report on increasing numbers of CDRs over the next few
years necessitates a clear and understandable classification system at all levels of the
organization. Only in this way can SSA’s CDR workload be accurately measured and
reported to Congress. Although the NDDSS provides reliable aggregate information,
our review has shown that the NDDSS and other data bases developed by SSA can not
ensure the accurate classification of periodic CDR cases from other CDR workloads. In
addition, SSA’s attempts to resolve the classification problems have been inadequate.

To assist the DDS offices with their CDR workload and improve the accuracy of CDR
data reported to Congress, we recommend that SSA:

   1.	 provide guidance to SSA and DDS offices explaining the importance of
       completed transmittal sheets and proper coding to differentiate the specific
       workloads;

   2.	 provide SSA components and DDS offices with a single source of authoritative
       and updated CDR classification codes to ensure all offices are using the proper
       codes;

   3.	 coordinate with DDS offices to update their software programs to ensure the
       proper classification codes are maintained in their systems; and

   4.	 update the edits in the NDDSS so that all incoming records with invalid WRM
       codes are rejected and returned to the DDS offices for correction.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations except to
update the edits in the NDDSS so that all incoming records with invalid WRM codes
are rejected and returned to the DDS offices for correction. SSA stated that
subsequent to our exit conference, the Office of Systems Requirements verified that
invalid codes are not accepted by the NDDSS.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

At the time of our audit, the NDDSS accepted invalid codes, as we found specific cases
where invalid codes were accepted. In future audits, we will test whether SSA’s recent
changes corrected this condition.



                                         16

APPENDICES

                                                             APPENDIX A


                   LIST OF ACRONYMS



CDT     Continuing Disability Review Type

CDR     Continuing Disability Review

CDRCF   Continuing Disability Review Control File

DAA     Drug Addiction and/or Alcoholism

DDS     Disability Determination Services

DI      Disability Insurance

EM      Emergency Message

EPE     Extended Period of Eligibility

FO      Field Office

FSO     Folder Service Operations

FY      Fiscal Year

GPRA    Government Performance and Results Act

MIE     Medical Improvement Expected

MIM     Management Information Manual

MINE    Medical Improvement Not Expected

MIP     Medical Improvement Possible

NDDSS   National Disability Determination Services System

OD      Office of Disability

ODO     Office of Disability Operations

OIM     Office of Information Management

P.L.    Public Law

POMS    Program Operations Manual Systems

SAOR    State Agency Operations Report

SSA     Social Security Administration

SSI     Supplemental Security Income

VR      Vocational Rehabilitation

WRM     Why Review was Made

                                                                                                   APPENDIX B


              RELEVANT SSA CDR LEGISLATION



                                                                                                    PROGRAM
 LEGISLATION             DATE ENACTED                          PROVISIONS                           INVOLVED
Section 221(i) of the   Act amended on           1) Report to Congress annually on the                 Disability
Social Security Act     June 9, 1980 by Public      results of periodic continuing disability       Insurance (DI)
                        Law (P.L.) 96-265; on       review (CDRs) required to be
                        January 12, 1983 by         performed on a beneficiary at least
                        P.L. 97-455, and on         once every 3 years.
                        November 10,1988 by      2) Report to Congress annually with                      DI
                        P.L. 100-647                respect to determinations that the
                                                    Commissioner has made, on a State-
                                                    by-State basis, to waive the
                                                    requirement that the continuing
                                                    eligibility of disability beneficiaries with
                                                    nonpermanent disabilities be reviewed
                                                    at least once every 3 years.

Social Security         August 1994              1) Conduct medical reviews on at least             Social Security
Independence and                                    one-third of individuals attaining age-18        Income (SSI)
Program                                             each year during fiscal year (Fys) 1996
Improvements Act of                                 through 1998. Report to Congress by
1994 (P.L. 103-296)                                 October 1, 1998. (Note A)
                                                 2) Conduct at least 100,000 CDRs
                                                    annually on SSI recipients for the                   SSI
                                                    period October 1995 through
                                                    September 1998. Report to Congress
                                                    by October 1, 1998.

Contract with           March 1996               1) Conduct redeterminations by                         DI/SSI
America                                             January 1, 1997 for beneficiaries for
Advancement Act of                                  whom Drug Addiction and/or
1996 (P.L. 104-121)                                 Alcoholism (DAA) is a contributing
(Note B)                                            factor material to the finding of
                                                    disability and who timely appealed their
                                                    termination based on DAA.
                                                 2) Report to Congress annually for                     DI/SSI
                                                    FYs 1996 through 2002 on the amount
                                                    of money spent on CDRs, the number
                                                    of reviews conducted by category, the
                                                    results of such reviews by program and
                                                    the estimated savings by program over
                                                    the short-, medium- and long-term.




                                                    B-1

                                                                                                    PROGRAM
  LEGISLATION              DATE ENACTED                          PROVISIONS                         INVOLVED
 Personal                August 1996                1) Redetermine eligibility for children             SSI
 Responsibility and                                    considered disabled based on the
 Work Opportunity                                      comparable severity standard and/or
 Reconciliation Act of                                 maladaptive behavior. (Note D)
 1996 (P.L. 104-193)                                2) Conduct CDRs once every 3 years for              SSI
 (Note C)                                              recipients under age 18 with
                                                       nonpermanent disabilities.
                                                    3) Conduct CDRs not later than                      SSI
                                                       12 months after birth for low birth-
                                                       weight babies. (Note D)
                                                    4) Redetermine eligibility during the               SSI
                                                                         th
                                                       individuals 18 year using the adult
                                                       initial eligibility criteria. (Note D)

 Balanced Budget Act     August 1997                1) Extends current 12-month period to               SSI
 of 1997                                               18 months for redetermining the
 (P.L. 105-33)                                         disability of children under age-18
                                                       under the new comparable severity
                                                       standard and/or maladaptive behavior
                                                       standards.
                                                    2) Permits SSA to schedule a CDR for                SSI
                                                       low birth-weight babies at a date after
                                                       the first birthday if the Commissioner
                                                       determines the impairment is not
                                                       expected to improve within 12 months
                                                       of the child’s birth.
                                                    3) Provides SSA with the authority to               SSI
                                                       make redeterminations of disabled
                                                       childhood recipients who attain age-18,
                                                       using the adult eligibility criteria, more
                                                       than 1 year after the date such
                                                       recipient attains age-18.

Notes:       (A) Repealed by P.L. 104-193.
             (B) The legislation also authorized funds to be spent on performing the required periodic CDRs in
                 addition to the normal workload: for FY 1996, $260 million; for FY 1997, $360million; for FY
                 1998, $570 million; and for FY 1999 though FY 2002, $720 million annually.
             (C) The legislation authorized $150 million in FY 1997 and $100 million in FY 1998 in additional funds
                 to assist with these mandates. The legislation also requires eligibility redeterminations for non-
                 citizens.
             (D) Provisions modified by the Balanced Budget Act of 1997.




                                                      B-2

                                                                            APPENDIX C


 SUMMARY OF GOVERNMENT PERFORMANCE

       AND RESULTS ACT OF 1993


The Government Performance and Results Act (GPRA) of 1993 was signed into law
after the U.S. Congress concluded:

   1.	 waste and inefficiency in Federal programs undermine the confidence of the
       American people in the Government and reduces the Federal Government's
       ability to address adequately vital public needs;

   2.	 Federal managers are seriously disadvantaged in their efforts to improve
       program efficiency and effectiveness, because of insufficient articulation of
       program goals and inadequate information on program performance; and

   3.	 congressional policymaking, spending decisions and program oversight are
       seriously handicapped by insufficient attention to program performance and
       results.

The purposes of GPRA are to:

   1.	 improve the confidence of the American people in the capability of the Federal
       Government, by systematically holding Federal agencies accountable for
       achieving program results;

   2.	 initiate program performance reform with a series of pilot projects in setting
       program goals, measuring program performance against those goals, and
       reporting publicly on their progress;

   3.	 improve Federal program effectiveness and public accountability by promoting a
       new focus on results, service quality, and customer satisfaction;

   4.	 help Federal managers improve service delivery, by requiring that they plan for
       meeting program objectives and by providing them with information about
       program results and service quality;




                                           C-1

   5.	 improve congressional decision making by providing more objective information
       on achieving statutory objectives, and on the relative effectiveness and
       efficiency of Federal programs and spending; and

   6. improve internal management of the Federal Government.

The GPRA requires Federal agencies to develop:

   1.	 strategic plans, which contain a comprehensive mission statement, general
       goals and objectives, and descriptions of how the goals and objectives are to be
       achieved;

   2.	 annual performance plans, which contain objective and quantifiable
       performance indicators and goals that measure the relevant outputs, service
       levels, and outcomes of each program activity; and

   3.	 annual performance reports, which review the success of achieving the
       performance goals of the previous fiscal year, explain why any goals have not
       been met, and what plans are in place to foster goal achievement.

To date, the Social Security Administration (SSA) has fulfilled the main requirements of
GPRA. It provided Congress and the Office of Management and Budget with its
strategic plan, “Keeping the Promise,”in September 1997. “Keeping the Promise”
presented the strategic goals and objectives the Agency intended to meet over the next
5 years. GPRA requires strategic plans to cover a period of not less than 5 years and
that they be updated at least every 3 years. SSA released its first annual performance
plan in February 1998 and reported on these indicators in its FY 1998 Accountability
Report. The first annual performance plan, released as part of SSA’s budget
justification, detailed the Agency’s performance goals for FY 1999. SSA has since
released its second annual performance plan which details the performance goals it
plans to achieve in FY 2000.




                                          C-2

                                                                                 APPENDIX D

 CDR CODES PROVIDED IN SSA’S GUIDANCE
COMPARED TO THE CODES USED BY THE DDS
           OFFICES VISITED

  Continuing Disability Review
  Type Code and Description            POMS (1)        DDS Office   DDS Office    DDS Office
     Per the Management                                   #1           #2            #3
      Information Manual
 01- Periodic Review Case (MIE)           Y                Y            Y             Y
 02- Childhood Disability                 D                Y            Y             Y
     Redetermination (2)
 03- Periodic Review Case (MIP)           Y                Y            D             Y
 04- Age-18 Disability Determination      D                Y            Y             Y
 05- Reserved for Future Use              D                D            D             Y
 06- Named Litigant                       Y                Y            Y             N
 07- Reserved for Future Use              D                D            D             Y
 08- Reopened Mental Impairment           Y                Y            Y             N
 09- Permanent Disability                 Y                Y            Y             Y
 10- Reserved for Future Use              D                D            D             D
 11- Reserved for Future Use              D                D            D             Y
 12- Extended Period of Eligibility       Y                Y            Y             Y
     (EPE) (2)
 13- Miscellaneous                        Y                D            Y             Y
 34- CDR Mailer Released FY 1994          Y                N            Y             N
 35- CDR Mailer Released FY 1995          Y                N            Y             N
 36- CDR Mailer Released FY 1996          Y                N            Y             N
 37- CDR Mailer Released FY 1997          Y                N            Y             N
 38- CDR Mailer Released FY 1998          Y                Y            Y             N
 39- CDR Mailer Released FY 1999          Y                N            Y             N
 40- CDR Mailer Released FY 2000          Y                N            Y             N
 41- CDR Mailer Released FY 2001          Y                N            N             N
 42- CDR Mailer Released FY 2002          Y                N            N             N
 43- CDR Mailer Released FY 2003          Y                N            N             N
 44- CDR Mailer Released FY 2004          Y                N            N             N
Legend: 	 Y = Code being used in same way as defined in the Management Information Manual
          N = Code not being used at all
          D = Code being used but for a different purpose

Notes: (1) Program Operations Manual System (POMS) Section SM 06001.120 – How to Complete
the Receipt Data Input Screen
       (2)	 Code 12 is used for work CDRs. Code 02 is used for Welfare Reform
            redeterminations.
            The remainder are considered by SSA to be periodic CDRs.

                                              D - 1

WRM Code and Description
  Per the Management                  POMS (1)          DDS         DDS         DDS
  Information Manual                                  Office #1   Office #2   Office #3
-   Vocational Rehabilitation Diary      Y                N          Y           Y
    (Not “301”Case)
- Court Remand (Based on                 Y               N           Y           Y
    Social Security Disability
    Reform Act of 1984)
02- Reopened Mental Impairment           Y               N           Y           Y
    Case (Based on Social Security
    Disability Reform Act of 1984)
03- Reserved for Future Use              Y               Y           D           Y
04- MIE (Medical Reexamination           Y               Y           D           Y
    Diary)
05- MIP (3-Year Periodic Review          Y               Y           Y           Y
    Diary)
06- MINE (5-Year Periodic Review         Y               Y           Y           Y
    Diary)
07- MINE (7-Year Periodic Review         Y               Y           Y           Y
    Diary)
08- EPE Medical Review (2)               Y               Y           Y           Y
09- Adoption Issue                       Y               Y           Y           Y
10- Trial Work Period Diary              Y               N           Y           Y
    Matured (2)
11- Voluntary Report of Medical          Y               Y           Y           Y
    Improvement
12- Earnings Posted – MIE (2)            Y               Y           Y           Y
13- Earnings Posted – MIP or             Y               Y           Y           Y
    MINE (2)
14- Voluntary Report of Work –           Y               Y           Y           Y
     MIE (2)
15- Voluntary Report of Work – MIP       Y               Y           Y           Y
     or MINE (2)
16- Third Party Report                   Y               Y           Y           Y
17- State VR Report                      Y               Y           Y           Y
18- Court Order (Other than              Y               N           Y           Y
    Medical Improvement –
    Individual or Class Member)
19- Post Transplant End-State            Y               N           Y           Y
    Renal Disease
20- Special (Use only when               Y               N           Y           Y
     specifically instructed.)
21- Other                                Y               Y           Y           Y
22- ”301”Case Review Diary               Y               N           Y           Y
23- 1619(a) – Initial Eligibility        Y               Y           D           D
    CDR (2)
24- 1619(b) – Initial Eligibility        Y               Y           D           D
    CDR (2)
25- 1619 Status Change CDR (2)           Y               Y           D           D

WRM Code and Description
  Per the Management                  POMS (1)          DDS         DDS         DDS

                                             D - 2

      Information Manual                                Office #1    Office #2       Office #3
 26- 1619 CDR – Concurrent title II       N                Y             D               N
     Determination (2)
 27- Individualized Functional            N                Y             D               Y
     Assessment Disability
     Redetermination (2)
 28- Maladaptive Behavior                 N                Y             D               Y
     Disability (2)
 29- Age-18 Disability                    N                Y             D               Y
     Redetermination
 30- Reserved for Future Use               Y               Y             D               Y
 31- Reserved for Future Use               Y               Y             D               Y
 34- CDR Mailer Released FY 1994          N                N              Y              N
 35- CDR Mailer Released FY 1995          N                N              Y              N
 36- CDR Mailer Released FY 1996          N                N              Y              N
 37- CDR Mailer Released FY 1997          N                Y              Y              N
 38- CDR Mailer Released FY 1998          N                N              Y              N
 39- CDR Mailer Released FY 1999          N                N              Y              N
 40- CDR Mailer Released FY 2000          N                N              Y              N
 41- CDR Mailer Released FY 2001          N                N             N               N
 42- CDR Mailer Released FY 2002          N                N             N               N
 43- CDR Mailer Released FY 2003          N                N             N               N
 44- CDR Mailer Released FY 2004          N                N             N               N

Legend: 	 Y = Code being used in same way as defined in the Management Information Manual
          N = Code not being used at all
          D = Code being used but for a different purpose

Notes: (1) POMS Section DI 28085.020 – Why Review Was Made.
       (2)	 Codes 08, 10, 12, 13, 14, 15, 23, 24, 25 and 26 are used for work CDRs. Codes 27 and
            28 are used for Welfare Reform redeterminations. The remainder are considered by
            SSA to be periodic CDRs.




                                               D - 3

                   APPENDIX E



AGENCY COMMENTS

                                                                   APPENDIX F



MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Roger J. Normand, Director, Northern Program Audit Division


Rona Rustigian, Deputy Director


Walter Bayer, Auditor


Kevin Joyce, Auditor


Joseph LoVecchio, Auditor




For additional copies of this report, please contact the Office of the Inspector

General’s Public Affairs Specialist at (410) 966-5998. Refer to Common

Identification Number A-01-98-94003.

                        APPENDIX G



SSA ORGANIZATIONAL CHART

